            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
          STATE OF ILLINOIS
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2004

     February 2006   A-77-06-00006




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   February 10, 2006                                                   Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
        Ended June 30, 2004 (A-77-06-00006)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Illinois for the Fiscal Year ended June 30, 2004. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        KPMG LLP performed the audit. The Department of Health and Human Services’
        (HHS) desk review concluded that the audit met Federal requirements. In reporting the
        results of the single audit, we relied entirely on the internal control and compliance work
        performed by KPMG LLP and the reviews performed by HHS. We conducted our
        review in accordance with the Quality Standards for Inspections issued by the
        President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Illinois Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Department of Human Services
        (DHS) is the Illinois DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that fringe benefit expenditures were not properly allocated to
various Federal programs, including SSA, through the indirect cost allocation process.
Specifically, DHS overclaimed life insurance expenditures and underclaimed dental
insurance expenditures. The corrective action plan indicated that the errors were
corrected and procedures were implemented to ensure such problems will be detected
in the future (Attachment A, pages 1 and 2).

We recommend that SSA ensure DHS took appropriate actions to correct the
expenditures inappropriately charged to its programs.

The single audit also disclosed that DHS did not have an adequate process to ensure
that financial information needed for the financial statements and the Schedule of
Expenditures of Federal Awards was accurate and timely (Attachment B, page 1).
Although this finding was not specifically identified to SSA, it may impact DDS
operations. I am bringing this matter to your attention as it represents a potentially
serious service delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                                S
                                                Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
  Page 1 of 1
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
